<html>
<title> - PREVENTING TEEN VIOLENCE: STRATEGIES FOR PROTECTING TEENS FROM DATING VIOLENCE AND BULLYING</title>
<body><pre>[Senate Hearing 112-97]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-97
 
 PREVENTING TEEN VIOLENCE: STRATEGIES FOR PROTECTING TEENS FROM DATING 
                         VIOLENCE AND BULLYING

=======================================================================



                                HEARING

                               before the

                  SUBCOMMITTEE ON CRIME AND TERRORISM

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2011

                               __________

                        Pawtucket, Rhode Island

                               __________

                          Serial No. J-112-25

                               __________

         Printed for the use of the Committee on the Judiciary




                  U.S. GOVERNMENT PRINTING OFFICE
68-183                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

                  Subcommittee on Crime and Terrorism

               SHELDON WHITEHOUSE, Rhode Island, Chairman
HERB KOHL, Wisconsin                 JON KYL, Arizona
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
CHRISTOPHER A. COONS, Delaware
                Stephen Lilley, Democratic Chief Counsel
               Stephen Higgins, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Whitehouse, Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     1

                               WITNESSES

Burke, Ann, President, Lindsay Ann Burke Memorial Fund, North 
  Kingstown, Rhode Island........................................     3
Debare, Deborah, Executive Director, Rhode Island Coalition 
  Against Domestic Violence, Warwick, Rhode Island...............     6
Reilly, Kate, Director, Start Strong, Sojourner House, 
  Providence, Rhode Island.......................................     8
Zakarin, Ruth, Executive Director, Katie Brown Educational 
  Program, Fall River, Massachusetts.............................    10

                       SUBMISSIONS FOR THE RECORD

Burke, Ann, President, Lindsay Ann Burke Memorial Fund, North 
  Kingstown, Rhode Island, statement.............................    21
Debare, Deborah, Executive Director, Rhode Island Coalition 
  Against Domestic Violence, Warwick, Rhode Island, statement....    27
Reilly, Kate, Director, Start Strong, Sojourner House, 
  Providence, Rhode Island, statement............................    38
Zakarin, Ruth, Executive Director, Katie Brown Educational 
  Program, Fall River, Massachusetts, statement..................    41

                 ADDITIONAL SUBMISSIONS FOR THE RECORD

Submissions for the record not printed due to voluminous nature, 
  previously printed by an agency of the Federal Government, or 
  other criteria determined by the Committee:

Library of Congress, Teen Dating Violence: An Annotated 
  Bibliography, Priscilla Offenhauer, Researcher, and Alice 
  Buchalter, Project Manager, a Report Prepared by the Federal 
  Research Division, Library of Congress under an Interagency 
  Agreement with the Violence and Victimization Research 
  Division, National Institute of Justice, April 2011


 PREVENTING TEEN VIOLENCE: STRATEGIES FOR PROTECTING TEENS FROM DATING 
                         VIOLENCE AND BULLYING

                              ----------                              


                          FRIDAY, JUNE 3, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                       Subcommittee on Crime and Terrorism,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:40 p.m., 
William E. Tolman Senior High School, 150 Exchange Street, 
Pawtucket, Rhode Island, Hon. Sheldon Whitehouse, Chairman of 
the Subcommittee, presiding.
    Present: Senator Whitehouse.

 OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, A U.S. SENATOR 
  FROM THE STATE OF RHODE ISLAND, CHAIRMAN OF THE SUBCOMMITTEE

    Senator Whitehouse. I want to thank you, Principal Silva.
    [Applause.]
    Senator Whitehouse. And I want to thank the administration 
and the teachers and the students of Tolman High for having us 
here this afternoon.
    We have some significant guests who are with us and I 
wanted to recognize them. I believe that Attorney General 
Kilmartin will be coming, but in the meantime, the Department 
of Attorney General is represented here by the Deputy Attorney 
General, my former deputy when I was attorney general, Jerry 
Coyne. So please welcome Jerry.
    [Applause.]
    Senator Whitehouse. We have Senator Bea Lanzi, who is the 
sponsor of the Lindsay Ann Burke Act, which passed in Rhode 
Island and which we will hear more about during the testimony. 
She is also a member of the State Cyber-Bullying Task Force 
that is run by Senator John Tassoni.
    Representative Eileen Naughton will be joining us. She is 
the House sponsor of the Lindsay Ann Burke Act. She is 
currently working with our State Department of Health on 
children and teen issues, including dating violence.
    Representative Grace Diaz is here, as well. And if you 
could give a hand for our legislative leaders who are here with 
us.
    [Applause.]
    Senator Whitehouse. I am told that the mayor will be here, 
but he is not here at the moment. In the meantime, he is 
represented by our new police chief here in Pawtucket, Paul 
King.
    Chief King, thank you very much for being here.
    [Applause.]
    Senator Whitehouse. And from the school side of things, we 
have my friend, Ray Spooner, the Chairman of the Pawtucket 
School Committee, and, of course, your principal, Fred Silva.
    [Applause.]
    Senator Whitehouse. So this afternoon's field hearing of 
the Senate Judiciary Committee's Subcommittee on Crime and 
Terrorism, which I am the Chairman of, considers a topic that 
is extremely important to Rhode Island families--preventing 
teen violence, strategies for protecting teens from dating 
violence and from bullying.
    For the students in the audience, a hearing, a Senate 
hearing like this is a formal opportunity for Congress to learn 
more about an issue. The testimony of our witnesses today 
becomes part of our Nation's official legislative record and it 
provides valuable guidance to Congress as we work on our 
Nation's laws.
    Today's hearing is an important step towards learning how 
to better protect our Nation's teens from violence.
    Our setting provides a very appropriate forum for studying 
and learning about effective tools to reduce dating violence 
and bullying.
    These are extremely important topics. According to the 
Center for Disease Control, one in 10 teens reports being hit 
or physically hurt on purpose by a boyfriend or girlfriend at 
least once in the past year.
    Teen violence can take other forms, as well. Each year, one 
in every four adolescents reports verbal, physical, emotional 
or sexual abuse from a dating partner.
    As we will hear from our witnesses and as many in the 
audience know, these are not mere statistics. Every victim is 
someone's child or sibling, someone's friend or classmate.
    There is a close relationship between dating violence and 
bullying. Those who bully their classmates in elementary and 
middle school may be more likely to become violent when they 
enter relationships. What can seem to be simple bullying or 
name-calling early in a relationship can escalate to more 
serious violence, including assault.
    New technologies, such as smart phones and social 
networking sites, also have created new avenues for dating 
violence and bullying. Abusive messages posted on a Website can 
quickly reach a broad audience and be difficult to get rid of.
    Rhode Island has been at the forefront of efforts to 
prevent and respond to teen dating violence. Through the hard 
work of organizations, including the Rhode Island Coalition 
Against Domestic Violence, the Lindsay Ann Burke Foundation, 
the Katie Brown Educational Program, and the Safe Start Program 
at the Sojourner House, as well as the close cooperation of law 
enforcement officers, teachers, parents and community members, 
Rhode Islanders have led the Nation in developing innovative 
programs to promote strong and safe relationships. And Rhode 
Island's Lindsay Ann Burke Act has become a model to other 
states in addressing teen violence.
    We are joined today by a talented and accomplished group of 
leaders from our State who will share their experience and 
wisdom on this important topic.
    I believe this afternoon's hearing will be particularly 
important as Congress turns to reauthorizing the Violence 
Against Women Act later this year. That law has done so much to 
protect victims of violence in Rhode Island and across the 
country. We will also be, I hope, taking up a new education 
bill in the Health Committee, which may provide, also, a 
vehicle for considering legislation in this area.
    I look forward to working with my Republican and Democratic 
colleagues to make sure that Rhode Island's voice is heard as 
Congress works to protect families and prevent teen violence.
    I see that Mayor Grebien has arrived. You were recognized 
earlier before you got here, Don, and the kids all cheered for 
Paul King in your stead. But perhaps if you would stand up, 
they would give you a cheer, as well.
    [Applause.]
    Senator Whitehouse. So, now, one of the things that we do 
in hearings in Congress is we have the witness sworn. You have 
all seen the photographs of witnesses before Congress with 
their hands up being sworn in. And so we will do that here, as 
well. And I will ask the witnesses to stand and raise your 
right hand.
    [Witnesses sworn.]
    Senator Whitehouse. Please be seated. We have some 
wonderful witnesses here and I will introduce each of them as 
they give their testimony, and then we will save the end for 
questions and general discussion.
    Ann Burke is a registered nurse, with a master's degree in 
health education, and a recently retired health teacher who 
taught middle school students in Rhode Island for 25 years.
    After the 2005 murder of her daughter, Lindsay, a victim of 
dating violence, she founded the Lindsay Ann Burke Memorial 
Fund, whose mission is to support the prevention of dating and 
domestic violence through education.
    In 2009, we welcomed Ms. Burke to Washington to testify 
before the full Senate Judiciary Committee at a hearing on the 
continued importance of the Violence Against Women Act, and it 
is a great privilege to hear from her today.
    Ms. Burke, please proceed.

 STATEMENT OF ANN BURKE, PRESIDENT, LINDSAY ANN BURKE MEMORIAL 
              FUND, NORTH KINGSTOWN, RHODE ISLAND

    Ms. Burke. Chairman Whitehouse, thank you for the 
opportunity to testify today on why Congress needs to 
prioritize teen dating violence prevention in the 
reauthorization of the Violence Against Women Act.
    I speak to you today as a mother, an advocate, and retired 
teacher. It has been almost 6 years since my daughter, Lindsay, 
was brutally tortured and murdered by her ex-boyfriend. We 
cannot change the past, but we can help shape and determine the 
future. And so I am proud that we have created a positive 
legacy in honor of Lindsay.
    In 2007, Rhode Island became the first state to pass a 
comprehensive teen dating violence law. Now, at least 14 states 
have followed the example of the Lindsay Ann Burke Act and 
passed laws to support education on teen dating violence.
    Many times, states pass laws after other parents experience 
my same nightmare. I know many of these parents from across our 
Nation. We have a parent e-mail support group, a group no one 
wants to belong to. And today, I speak for them, as well as 
myself.
    Not only do we live with the tremendous loss of our 
daughters and sons, but we have all been traumatized by this 
horrendous manner in which many of our children were tortured 
and murdered. Suffice it to say that the details of dating 
violence murders are beyond any sense of decency and morality.
    In Rhode Island, the attention given to this subject has 
made a difference. Since the passage of the Lindsay Ann Burke 
Act, physical teen dating violence rates have decreased from 14 
percent in 2007 to 10 percent in 2009. Just as importantly, the 
law created awareness on the severity of the issue among school 
personnel. Now, teachers are more receptive to teaching the 
topic of healthy relationships in health class.
    Beyond the statistics, I'd like to share some real life 
success stories. One of my former students wrote me a two-page 
letter about the abusive relationship she found herself in. The 
last paragraph reads: ``So I wrote this letter because I'll 
always wonder how long my initial relationship with that boy 
would have lasted if I hadn't had your voice in my head warning 
me to get out quickly. I think that if you had never taught me 
all of the warning signs of an abusive relationship, I would 
have strived to be a better girlfriend and I would have let him 
control me, because I wouldn't have known any better. I had 
never had a real boyfriend before. So how would I know the 
difference? Anything could have happened last year. Thank you 
for teaching me those lessons.''
    Another health teacher received a letter from a former 
student, who wrote: ``Last year in health class we learned 
about healthy relationships. I listened. I'm glad I did, 
because over the summer, I realized that my boyfriend was 
starting to become abusive. He would call me 30 times a day, 
leaving me voice mails of him screaming at the top of his 
lungs.
    One day I couldn't hang out and he punched a wall and 
threatened to do the same to me. If I hadn't taken your health 
class, I would definitely still be with him.
    So thank you for teaching us about relationships. It really 
does matter. People don't think it happens in our school. It 
does.''
    And yet another health teacher told me that after he 
finished teaching his unit on dating violence, one student 
walked up to him after class, pulled up her shirt sleeve, 
exposing several bruises, and said, ``This is what my boyfriend 
did to me.''
    There is no silver bullet, single message, intervention or 
campaign that has been demonstrated to prevent teen dating 
violence. Success will require a comprehensive approach. But on 
a positive note, we know that prevention works.
    Prevention research tells us we need to support education 
programs starting in middle school that do not simply talk 
about the warning signs of dating abuse, but initiate 
conversations about healthy relationships. We need to educate 
and engage those who influence teens, including parents, 
teachers, coaches, older youth and others.
    We need to meet youth where they are in person, but just as 
importantly, online through social marketing campaigns and 
tools, and policies need to be adopted to support this 
programming.
    Why is teen dating violence prevention an issue for the 
Violence Against Women Act and this committee? Last year, as a 
country, we spent more than $400 million for the Department of 
Justice VAWA programs to combat the serious crimes of domestic 
violence, dating violence, sexual assault and stalking. We need 
to invest in preventing teen dating violence to stop these 
adult crimes.
    As a mother, I can still remember the deep pain in my heart 
5 years ago when I first learned that dating violence is a 
preventable health problem.
    My hope is that the reauthorization of the Violence Against 
Women Act continues to support and expand services for teen 
victims, but also include the focus on the prevention and early 
intervention of teen dating violence.
    By involving the whole community, we will recognize that 
teen violence is a real and serious issue that can be 
prevented.
    And I'd like to share with you, Senator, an e-mail I 
received just yesterday which I think is most appropriate in 
supporting our prevention efforts.
    It reads: ``Mrs. Burke, on behalf of the West Warwick 
Public School Department, as well as personally, I want to 
thank you and commend you for your continued work in the battle 
against teen dating violence.
    Unfortunately, we find ourselves talking to our students 
much more about this than we would like to. However, the work 
you've done and the resources you provide have been powerful in 
sending the message to our students about what dating violence 
is, that it's not OK, and how to get help.
    We have many success stories of students getting out of 
destructive relationships, and I can honestly say your work 
played an integral part. Thank you again. Karen Tarasevich, 
Principal, West Warwick High School.''
    [Applause.]
    [The prepared testimony of Ms. Burke appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Ann.
    It is really extraordinary what you have accomplished. You 
took the worst nightmare that every parent dreads more than 
anything else and you turned the terrible energy of that into 
such a powerful force for good. And as we have said already, 
the leadership that you have shown is now being echoed around 
the country in many, many other states and we look forward to 
working with you on this.
    But I just wanted to add a particular word of how immensely 
proud I am of what you have accomplished out of this tragedy.
    Ms. Burke. Thank you, Senator. I appreciate that.
    Senator Whitehouse. Our next witness is Deborah DeBare, who 
I have worked with for many, many years as the executive 
director of the Rhode Island Coalition Against Domestic 
Violence.
    Previously, Ms. DeBare served for 5 years as the executive 
director of the Domestic Violence Resource Center of South 
County, and she was the policy and information associate for 
the Rhode Island Division of Mental Health and Community 
Services.
    She received her master's degree from the Heller School at 
Brandeis University and a BA from Brown University. And it is a 
pleasure to have her testimony today.
    Please, Deb, proceed.

 STATEMENT OF DEBORAH DEBARE, EXECUTIVE DIRECTOR, RHODE ISLAND 
   COALITION AGAINST DOMESTIC VIOLENCE, WARWICK, RHODE ISLAND

    Ms. DeBare. Thank you. Chairman Whitehouse, thank you very 
much for the opportunity to discuss the prevalence of dating 
violence and domestic abuse with you today.
    Recognizing the extent of the problem is the first step in 
preventing future abuse. The Rhode Island Coalition Against 
Domestic Violence is a statewide association of six member 
agencies and a task force of survivors, SOAR, dedicated to 
ending domestic violence in our state.
    As executive director of the coalition, I'm here today to 
discuss the extent of domestic violence and dating violence, 
its impact on children and youth, and the critical importance 
of primary prevention programming.
    In the United States, the crisis of domestic violence has 
reached epidemic proportions. Families from all income 
brackets, educational levels, and racial and ethnic origins 
feel its effects. On average, more than three women a day are 
murdered by their husbands or boyfriends in the United States, 
and women experience over two million injuries from intimate 
partner violence every year.
    Rhode Island is no exception to the national norm. In 2010, 
Rhode Island's six domestic violence agencies provided a 
comprehensive array of services to over 10,400 victims of 
domestic violence and responded to over 15,000 crisis calls.
    The impact of domestic violence on children who witness 
abuse has only recently been recognized. Growing up in a 
violent home can affect every aspect of a child's life, growth 
and development, and lead to higher risks of repeating the 
cycle of abuse.
    In spite of this, we know that when properly identified and 
addressed, the effects of domestic violence on children can be 
greatly mitigated.
    Teen dating violence is also more prevalent in the United 
States than people realize. Approximately one in three 
adolescent girls in the United States is a victim of physical, 
emotional or verbal abuse from a dating partner, a figure which 
far exceeds victimization rates for other types of violence 
affecting youth.
    In Rhode Island, an estimated 11 percent of high school 
students stay that they have been hit, slapped, or otherwise 
hurt physically by a girlfriend or boyfriend on purpose. Ten 
percent of Rhode Island high school students say that they have 
been forced to have sex when they did not want to, compared to 
8 percent nationally.
    The domestic violence movement has spent the past 30 years 
building up its defensive line, you could say, in the struggle 
to end violence against women. We have scored a lot of points 
and won a lot of games through the passage of the Violence 
Against Women Act, mandatory arrest laws, and the development 
of safe homes and support services.
    But in order to win that championship game, we need to 
build our offensive line, as well. We need to engage 
communities in primary prevention.
    Rhode Island has been a leader in the prevention of 
domestic violence and dating violence, as we have put resources 
into working to change public attitudes about the issue for 
over 10 years.
    Our very first public awareness campaign focused on 
bystanders, urging people to change their attitude about 
domestic violence, to stop thinking about it as a private 
matter. Since then, we've been fortunate to have been one of 
the first 14 states funded through the Centers for Disease 
Control, through the DELTA program, to develop a statewide 
prevention plan for domestic violence.
    The Violence Against Women Act has unquestionably improved 
the national response to domestic and sexual violence. Since 
VAWA passed in 1994, states have passed more than 660 laws to 
combat domestic violence, sexual assault, dating violence, and 
stalking. However, in addition to saving and rebuilding lives, 
VAWA has actually saved taxpayers $14.8 million in net averted 
social costs in the first 6 years alone.
    VAWA was not only the right thing to do, it has also proven 
to be fiscally sound legislation. Due to the overwhelming 
success of VAWA-funded programs, more and more victims are 
coming forward for help each year. However, this driving demand 
for services without a concurrent increase in funding means 
that many desperate victims are turned away from live-saving 
services. In just 1 day, there were over 9,000 requests for 
service unable to be met by domestic violence agencies around 
the country.
    The Violence Against Women Act is working, but the job is 
not done. Although VAWA has done much to create systems that 
help victims and survivors, much more is needed. We must 
strengthen VAWA so that it can work for all victims of domestic 
and sexual violence. Whether they live in rural or urban areas, 
whether they are children or elderly victims, whether they 
speak English or another language, every victim deserves a 
chance to live a peace-filled life.
    Congress has a unique opportunity to make a difference in 
the lives of so many by reauthorizing the Violence Against 
Women Act in 2011 with key and (inaudible) improvements.
    Thank you, Senator Whitehouse, for all you have done, for 
your leadership, and for all I know you will continue to do to 
help victims of domestic and dating violence. And, again, thank 
you very much for the opportunity to share some comments with 
you.
    [Applause.]
    [The prepared testimony of Ms. DeBare appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Deb. And thank you for your 
many years of dedicated work in this area.
    Our next witness is Kate Reilly. Kate directs Start Strong 
Rhode Island, a program based at the Sojourner House in 
Providence, which aims to curb the epidemic of teen dating and 
digital abuse.
    At Start Strong, Ms. Reilly is leading the development of a 
videogame and a social networking site that will help teens 
learn about the difference between healthy and unhealthy 
relationships.
    Ms. Reilly has a master's degree in epidemiology from the 
Boston University School of Public Health and a bachelor's 
degree from New College of Florida.
    We welcome her for her testimony. Please proceed.

  STATEMENT OF KATE REILLY, DIRECTOR, START STRONG, SOJOURNER 
                HOUSE, PROVIDENCE, RHODE ISLAND

    Ms. Reilly. Thank you, Chairman Whitehouse, for the 
invitation to testify on a program aimed at preventing teen 
dating violence. It is Start Strong, building healthy teen 
relationships.
    I direct that program, and it's a partnership led by 
Sojourner House, one of six domestic violence member agencies 
of the Rhode Island Coalition Against Domestic Violence. We 
partner with Young Voices to develop and implement innovative 
approaches to prevent teen dating violence.
    Six months ago, Start Strong Rhode Island invited young 
people to share their relationships, in 140 characters or less, 
on our interactive Website, called hookupwithrespect.com. We 
thought that we might get a few dozen entries from kids, but by 
the end of the month, we had hundreds of stories from kids all 
over the country like these: ``I go out with an amazing guy. He 
cheated on me twice. I can't break up with him. Every time I 
get angry, he yells at me and calls me insane. Signed, I love 
him,'' 14-years-old, Providence.
    This one: ``I was in an abusive relationship and I left. 
Now, he's begging me to come back. He's buying me all the good 
things and doing sweet stuff. I don't want to go back, but I do 
miss him. Signed, Annie W.,'' 16-years-old, Providence.
    The stories submitted to our site, in addition to the 
dozens of interviews and conversations with hundreds of 
students in classrooms, shows that young people in Rhode Island 
know what's unhealthy and they see these negative (inaudible) 
and they want to talk about the issues.
    But these stories show that young people everywhere need to 
learn how to build healthy relationships. When young people 
learn and embrace healthy relationship skills, they can prevent 
teen dating violence and future adult domestic violence or 
sexual violence, as well as bullying, unintended teen 
pregnancy, and alcohol and substance abuse.
    So how do we make that happen? How can Congress partner 
with advocates and educators to create ways to help young 
people build healthy relationships?
    What do we know about what works? Well, first, we need 
Congressional support for comprehensive programs. We need 
products that bring our message of non-violence into places 
that youth are living and playing, school, home, after school, 
sports fields, and, also, in the connected world of smart 
phones and Facebook.
    Start Strong Rhode Island brings comprehensive and engaging 
prevention strategies to our school and community through a few 
key strategies. We're using the Fourth R, an evidence-based 
healthy relationships curriculum and have reached over 600 7th- 
and 8th-graders since October 2009.
    The social and emotional learning curriculum integrates 
interactive storytelling, multimedia, and performance. But 
we're also reaching out to parents with a program called 
Passport to Social Media, which helps parents prevent abuse in 
a digital world, so that they can work at home to keep their 
kids safe.
    Second, we need Congressional--we need Congress to 
recognize the importance of authentic youth-adult partnerships 
in this work. That means that we need to involve groups like 
Young Voices who work with young people and teach them how to 
understand laws so that they can advocate for policy change.
    Finally, we need Congressional support for this 
conversation being on the social Web, Facebook, Twitter, and, 
also, videogames. At Start Strong Rhode Island, we're investing 
a significant amount of money in the social media tools, 
because we know that social and electronic media are no longer 
a pastime. A recent poll from the Pew Center of American Life 
shows that half of teens send 50 or more text messages a day. 
That's 1,500 texts a month.
    In another study from the Pew Center, 90 percent of 
teenagers classify themselves as gamers. That's also why we are 
going to, in October of 2011, release a videogame that will be 
the first immersive video game to support the teaching and 
learning of positive, protective relationship-building.
    We're leveraging the power of gaming to create an engaging 
virtual teen dating violence prevention curriculum that kids 
will be able to access anytime, anywhere they have access to 
the Internet.
    Yes, we need to be aware of the risks of these 
technologies, such as cyber-bullying and sexting, but we need 
to utilize them as opportunities. Social media and mobile 
technologies can be used to promote prevention and responsible 
bystander behavior.
    Any effort to stop teen dating violence must help youth 
learn to use these technologies responsibly and help them--and 
use them to disseminate prevention methods.
    Each of the 11 Start Strong communities across the country 
have innovative strategies for schools to change policies, use 
social media, and reach parents and older influencers to be a 
part of this prevention work.
    I urge you to look at these models by going to 
startstrongteens.org.
    In closing, to reach and engage youth, it's not enough to 
teach prevention in the classroom. Advocates, parents and youth 
leaders need to meet kids where they are and help them achieve 
healthy relationships on and offline.
    [The prepared testimony of Ms. Reilly appears as a 
submission for the record.]
    Senator Whitehouse. Thank you very much, Kate.
    [Applause.]
    Senator Whitehouse. Thank you for your leadership in 
bringing this message (inaudible). It is critically important.
    Our final witness is Ruth Zakarin. Ruth is the executive 
director of the Katie Brown Educational Program, a relationship 
violence prevention program serving Rhode Island and southern 
Massachusetts.
    Previously, Ms. Zakarin managed a program and provided 
services for victims of domestic violence and their children in 
a variety of settings, including hospitals, shelters, and 
community-based programs.
    She holds a master's degree in social work from the 
University of Pennsylvania.
    Thank you very much for your testimony.

  STATEMENT OF RUTH ZAKARIN, EXECUTIVE DIRECTOR, KATIE BROWN 
         EDUCATIONAL PROGRAM, FALL RIVER, MASSACHUSETTS

    Ms. Zakarin. First, I want to thank Chairman Whitehouse for 
hosting this hearing, and all of you for being in attendance.
    I am privileged to provide information about our program as 
a way of highlighting the importance and role of educational 
programs in preventing and eventually ending teen date 
violence.
    The Katie Brown Educational Program is a relationship 
violence prevention program. We work with students from 6th 
grade through high school, teaching information they need to be 
healthy and safe in all of their relationships.
    Since our inception in 2001, we have reached over 47,000 
individuals with our program. Our curriculum addresses a range 
of topics, including conflict resolution, managing anger 
without violence, recognizing the signs of an abusive 
relationship, standing up for your own rights, while also 
respecting the rights of others.
    We also teach about the different kinds of violence found 
in a relationship--physical, emotional, verbal, financial, and 
sexual violence. It is our belief that proactive education is 
at the core of preventing violence.
    This education cannot wait until high school when students 
are already involved in dating relationships and have formed 
many of their attitudes about how relationships should work. It 
is never too early to start teaching young people about how to 
have a healthy relationship.
    This kind of education provided early and often is 
extremely effective in reducing relationship violence. This 
belief has been reinforced by a 2007 study from the CDC on the 
effectiveness of universal school-based programs on the 
prevention of violence and reckless behavior.
    This report included bullying and dating violence 
prevention programs that met certain criteria, and found that 
for every $1 spent on prevention, over $3 were saved in health 
care and criminal justice costs per youth.
    At the Katie Brown Educational Program, we see the impact 
of such programming every time we enter a classroom to teach. 
All of the students who receive our curriculum complete three 
important tests. These three important tests measure changes in 
beliefs and attitudes about violence in relationships from 
bullying and healthy friendships in younger grades to dating 
violence in older grades.
    For example, in the 2009-2010 school year, 92 percent of 
participating 5th-graders believed in the following statement--
I feel like I can now stick up for myself without hurting 
anyone--at the completion of our program. Ninety-four percent 
of 7th-graders identified at least one part of their own 
behavior that they need to change to be more respectful in 
their relationships.
    Ninety-one percent of 8th-graders said they were willing to 
change their stereotypical ideas to be more tolerant and 
accepting of others. And 93 percent of high school students 
stated that they were more aware of the warning signs of an 
unhealthy or abusive relationship.
    These responses show us that when we talk to young people 
about violence in relationships, they listen. It is imperative 
that we give youth the opportunity to explore their own 
attitudes and beliefs about relationships. We have to teach 
young people what it means to be respectful to peers and, 
eventually, to dating partners.
    We must work with you to change social norms and create a 
culture where violence is not tolerated and where abusing a 
partner or peer is simply not acceptable.
    On April 4, 2011, Vice President Joe Biden spoke at the 
University of New Hampshire about the responsibility of 
colleges and universities to prevent sexual violence on campus. 
In his remarks, Vice President Biden spoke passionately about 
not just responding to victims, but working to prevent such 
violence so that there are no more victims.
    I would like to end with something the Vice President 
shared during his speech. Really, changing attitudes is what we 
need to do the most. Folks, if we are going to end violence, 
not reduce, but end it, we are going to have to change 
attitudes. That is the core of the problem.
    Again, I would like to thank Chairman Whitehouse for 
working in partnership with us to ensure that the necessary 
support and resources are available for the prevention of teen 
date violence.
    [The prepared testimony of Ruth Zakarin appears as a 
submission for the record.]
    Senator Whitehouse. Thank you very much.
    [Applause.]
    Senator Whitehouse. So let me ask each of you, first, for 
some recommendations. We in Congress will be, I hope soon, 
reauthorizing the Violence Against Women Act in the Judiciary 
Committee. I hope we will also be taking up fairly soon the new 
education bill in the Health, Education, Labor, and Pensions 
Committee.
    Obviously, the education-related bill would have to be 
fairly school-based in order to stay within the jurisdiction of 
that committee. But between the two of them, the VAWA 
jurisdiction and the ESEA jurisdiction, it should cover this 
area pretty broadly.
    What are the key program additions that each of you would 
recommend?
    And let me add that the record of this hearing will stay 
open for a week after the conclusion of the hearing and 
anything additional that you or anyone else may wish to file 
will be added to the record of the hearing.
    So you do not have to give me a perfect and complete answer 
right now, because later on I want a more comprehensive answer 
than time permits. (Inaudible.]
    Let me hear your thoughts on what you think are the most 
important areas we should be sure to invest our (inaudible).
    Ms. Burke. On the ESEA, I believe what we will submit are 
language changes and there will be (inaudible) school programs, 
to include language for teen dating violence, preventing teen 
dating violence. And there is no doubt that funding from that 
department can specifically apply to teen dating violence 
programs, as well.
    Second, with VAWA, we are recommending--and we will 
definitely put our written proposal in the--include it in the 
record for you--but we support what the Obama Administration is 
doing as far as having an umbrella over all the programs that 
are now in there, like the Aging Men program, the step program 
which offers some funding for school-based programs, creating 
policy.
    We do support a comprehensive approach, but we very 
specifically recommend the emphasis on prevention. Prevention 
must be included in that. Right now, there is no funding for 
prevention included.
    We just need the resources to work on prevention. Community 
agencies are part of that solution. They need resources to work 
with the schools on prevention so that we can have a 
comprehensive approach.
    We can't ignore the relationship between the community 
resources, the schools, the parents, the coaches. It's going to 
take everyone. It takes a village to raise a child. It's going 
to take a village to solve this problem.
    So the emphasis primarily on prevention within that 
comprehensive package in VAWA.
    Senator Whitehouse. And, Deb, what would you recommend?
    Ms. DeBare. I could go on for another half-hour about this 
because the Violence Against Women Act is so lengthy and 
comprehensive. But for the record here, what I would like to 
say is, in particular, in Title 3, which is the services and 
prevention for younger victims of violence elements, those are 
the sections we are going to be submitting in writing, the 
areas that we would like to see some additional language to 
ensure that prevention are eligible activities and that the 
focus can be in prevention. The Keeping Our Campuses Safe Act, 
for example, right now, those grant programs fund services and 
intervention. We want to make sure that prevention activities 
can be included there. And we want to make sure that all the 
prevention and protection programs are working, as Ann said, in 
a consolidated way and not duplicating efforts.
    Now, I would be remiss, also, if I didn't mention Title 1 
of the Violence Against Women Act, because the judicial and law 
enforcement tools, while they are most traditionally thought of 
as intervention strategies, are hand-in-hand, part-and-parcel 
with prevention.
    It has been proven that strong prosecutions results can 
deter and prevent future situations of domestic violence from 
occurring. So we have a number of recommendations that would 
strengthen Title 1, with the judicial and law enforcement 
tools, as well.
    Senator Whitehouse. Kate, what would be your first 
recommendations to us?
    Ms. Reilly. I would join Ann and Deb in supporting the 
consolidation of the VAWA violence prevention programs. I also 
am very much in support of comprehensive programs, and I think 
that we have a particular opportunity to expand comprehensive 
prevention in VAWA.
    I think that it's important to make sure that prevention 
programs leverage social networking, digital communication, and 
gaming are included and encouraged in those RFPs. And I would 
also encourage to include--to be as comprehensive as you 
possibly can in the ESEA language, and, in addition to the very 
important piece of classroom education, also include prevention 
activities that reach out to parents from the school, and 
engage the school in reaching those parents.
    Senator Whitehouse. And, Ruth.
    Ms. Zakarin. I certainly want to echo all the words of my 
colleagues and, also, add a piece about curricular standards so 
that schools are given some guidance about expectations for the 
inclusion of prevention curricula throughout the students' 
engagement in school.
    Senator Whitehouse. Where would you suggest those be 
developed or approved?
    Ms. Zakarin. I think that there is room for them in either 
VAWA or in school-based legislation. And I also would recommend 
that that legislation include language not just about what we 
want to prevent, but, also, what we want to encourage so that 
there is very clear and strong language about teaching the 
young people the skills they need to have healthy 
relationships; so not just what they shouldn't be doing in 
relationships, but what a healthy relationship should look 
like.
    Senator Whitehouse. Tell me when you think we should start 
focusing on this issue in terms of the ages of the kids who 
begin to get involved. I have been very involved in middle 
school legislation.
    President Obama, when he was in the Senate, had a bill that 
he supported called Success in the Middle. That has now become 
my legislation in the Health Committee, and that could provide 
a vehicle. And I just wanted to hear from you on whether that 
is too soon, not soon enough, about right in terms of when we 
need to engage with kids on this issue.
    Ms. DeBare. I don't think it's ever too soon to start 
discussing and working with children and youth at this. For 
example, even in working with preschool children who are 
experiencing and witnessing domestic violence in their home, 
early intervention with children at that age can dramatically 
reduce the risk of repeat cycles of abuse.
    And so I think it's misleading to think that if we just 
start in middle school to address the problem, that we will 
have taken care of it. There are definitely different 
interventions and strategies for working with developmentally 
aged children, but there are programs that are out there that 
are geared toward elementary school children, working on 
conflict resolution and starting to build those resiliency 
skills for children who already are at risk.
    Senator Whitehouse. Before they get into a relationship, 
the skills are laid down.
    Ms. DeBare. Absolutely.
    Ms. Zakarin. I would also add that I know that we are 
talking about this in terms of teen dating violence, but if we 
look at teen dating violence as one component of relationship 
violence as a whole and we look at that as a continuum, I think 
it becomes clear that we can start talking to children about 
what it means to have a healthy relationship and prevent 
violence in their peer relationships, their relationships with 
others, and, eventually, in dating relationships, and that can 
start very early on.
    So I would agree with Deb that it's never too early to talk 
to a child about what it means to have a healthy relationship 
and what the definition of respect is.
    Senator Whitehouse. Tell me a little bit more about the 
problem of children who witness violence. We worked on this 
together, Deb, when I was attorney general. What are the latest 
findings on this?
    Ms. DeBare. Well, as the years have gone on, there's more 
research out which, unfortunately, shows that there are 
significant behavioral and emotional factors that are impacted 
in children when they witness domestic violence in the home.
    We used to think that witnessing domestic violence meant 
that the children were present in the room when the violence 
occurred, but we've seen an impact shown when children are in 
the household. They may be in a different room and hear the 
abuse going on and the impact is as heightened for them as if 
they were in the same room.
    And so we need to look at the family as a whole unit in 
that sense and realize that it's not just the two parties that 
are in the assaultive situation that are impacted.
    Senator Whitehouse. And what is the effect that has been 
shown to take place with children who are witnesses to domestic 
violence, whether immediately or several rooms away, just 
hearing it?
    Ms. DeBare. Statistically, girls who witness domestic 
violence are at higher risk for growing up to experience dating 
violence or domestic violence as adults. Boys are at a higher 
risk for repeating the patterns of the abusive behavior. And 
both boys and girls are at risk of having emotional problems, 
behavioral problems in school, suicide ideation, psychological 
issues that present, mental health issues.
    So there's a whole host of problems that have not even be 
identified as having been caused or triggered by witnessing 
domestic abuse. However, as I said earlier, with early 
intervention, these effects can dramatically be mitigated.
    Senator Whitehouse. Kate, tell me a little bit more about 
the way in which the new social media technologies both enable 
abusive and bullying behavior and, also, enable communication 
that can help address those concerns.
    How prevalent is it, for instance, for you to see that the 
experience of violence or bullying that is brought to your 
attention has a connection to social networking sites and 
communications across social networks?
    Ms. Reilly. We definitely need more research about cyber-
bullying and digital abuse. But to give you an idea, when I go 
into a classroom of 30 kids and we start talking about digital 
abuse, sexting, constant text messaging, digital disrespect, 
there are few kids in the classroom who don't have a personal 
story to tell about that.
    There are some dynamics of connected culture that make 
bullying more dangerous and more prevalent. No. 1, it's 
sharing. So before, you would have a message or maybe a fight 
between two people, that would have been just contained to that 
relationship. Now, that's something that can spread to 
hundreds, even thousands of people in less than a second.
    You also have the audience effect. Conflicts can arise 
exponentially when you have hundreds or thousands of people 
looking in on it. And, third, you have what we call the 
invisible wall.
    Sometimes people get a dose of cyber confidence because 
they can't see who they're talking to, and people say and do 
things to each other that they would never do in real life.
    So those three dynamics take normal bullying, the same 
routes, in real life and just enhances it and makes it more 
pervasive.
    What I love about the social Web, though, in terms of doing 
the organizing and prevention work is that it allows you to 
pull everybody's stories about a topic and share that. So a lot 
of what we do at Hookup With Respect and with our video game is 
actually creating the tools that allow people to tell their own 
stories. And so we can bring the voices of thousands of kids 
together at once.
    Senator Whitehouse. I am warned that the bell is going to 
ring in about a minute and that that will create a certain 
amount of turmoil as the bell rings and people come and go.
    So what I think I will do is just briefly adjourn the 
hearing to allow that disruption to proceed, and then we will 
come back into session briefly. And although it is not in order 
for members of the audience to ask questions at a Subcommittee 
hearing, I do not think that there is anything that prevents me 
from listening to the questions and relating them to the panel.
    So I may take a question or two from the audience and pass 
it on to the two of you to help engage the discussion, and then 
we will conclude the hearing after that.
    So we will be adjourned for a few minutes until the bell 
has rung.
    [Whereupon, at 2:30 p.m., the hearing was recessed and 
resumed back on the record at 2:42 p.m.]
    AFTER RECESS
    Senator Whitehouse. The hearing will return to order. And 
what I think I will do is see if there is a question or two in 
the audience that I can relate to the panel so that we have a 
little bit of audience participation here. And I also wanted to 
give Ruth a chance to tell a little bit the story of Katie 
Brown and how the Katie Brown Education Project came into 
being, because it has made a really significant difference, 
but, unfortunately, it started in sorrow, as well.
    If you could explain the background.
    Ms. Zakarin. Thank you for giving me the opportunity to do 
so.
    Our program is named after a young woman named Katie Brown. 
She was a 20-year-old woman from Barrington, and she was 
murdered in January of 2001 by her dating partner. And in the 
aftermath of her death, friends of the Browns came together 
with a domestic violence direct service provider in Fall River 
to start a conversation about what could be done to prevent the 
same fate from happening to any other young person. And from 
there our program was born.
    And at its origins, we started sending folks into area 
schools to talk--start talking to young people about healthy 
relationships, and our curriculum developed from there and we 
now, as I mentioned before, have a curriculum for 5th grade 
through high school and we teach in schools throughout 
southeastern Massachussetts and Rhode Island.
    And our staff is now at its largest with four educators who 
are in area schools pretty much every week of the school year, 
again, with the idea that we want to give young people the 
skills and information that they need to recognize and prevent 
violence so that there are no more victims.
    Senator Whitehouse. I want to give a few other people a 
voice in this hearing, as well, because I hear from Rhode 
Islanders through letters and e-mail all the time on a wide 
variety of topics and a number of them have written letters to 
me about bullying, and I just want to share a few of those 
thoughts.
    One comes from a parent--these are from parents--in East 
Providence. A child at her son's school had committed suicide 
due to bullying and her son came to her to try to understand 
what had happened. And she and her husband talked to her son, 
but she was still anxious and concerned and she really didn't 
have a good answer.
    So she wrote to me this: ``When will this bullying come to 
an end? What is it that we have to do to get the point across 
that this is not acceptable and it will not be tolerated? It 
breaks my heart as a parent to know that a life is now gone, 
children are heartsick, and, God forbid, the reality of it all 
is that it could be your own child, and now I send my child off 
to school pondering and hoping that this never happens to my 
child.''
    Another parent wrote: ``My son is''--the first was from 
Jennifer in East Providence, Rhode Island. This is Beth writing 
in from Wakefield, Rhode Island. ``My son is in the 7th grade. 
He is athletic and no outward appearances make him look like a 
target for bullying. Yet, he is harassed daily. His grades have 
gone from good to failing. He cannot even concentrate. He has 
been assaulted and he can't hit them back or he will be 
suspended. Something needs to be done. Our children are not 
safe in school.''
    And the last one I will read is from J. in Bristol County. 
She said her daughter was being bullied because of the way she 
dressed. A group of girls constantly were on her to the point 
her school work failed and she feared going to school. The 
problem ultimately escalated to physical violence.
    She wrote: ``One day my daughter was beaten by one of the 
girls and I was called to the police station. The offending 
child was suspended briefly, but the girl's friends continue to 
taunt my daughter with name-calling and threats.''
    Eventually, she home-schooled her daughter and the daughter 
is now successfully in college.
    But I wanted to put into the record of this hearing the 
extent to which I think this touches all of our lives, and I 
hear so often from parents about this.
    Now, before we wrap up the hearing, I did say I would give 
people a chance. So if anybody has a question they would like 
to ask, I will happily repeat it to the panel.
    Yes, sir? Good afternoon.
    Question from the Audience. [Off microphone.] My son was a 
victim of gang violence. [Off microphone.] Despite all the 
damage done to his head and his face, it was over $10,000, they 
all walked. So this young lady was talking about stronger 
prosecutions.
    We need people in the attorney general's office--because I 
know Sheldon was big on doing--he did a lot to stop it.
    Well, the violence that is happening to these young people, 
the courts are allowing it, our attorney generals are allowing 
it. And it isn't just Rhode Island. It is happening across the 
country.
    So we need stronger prosecutions. [Off microphone] talking 
to the state police about the situation, one of the things I 
said to him, because they were involved in some of the internal 
affairs aspects, I said to him, I said, ``You've got to love 
the people and you've got to start--we've got to start 
prosecuting the criminals.''
    I do thank you for your time, and have a great day.
    Senator Whitehouse. Thank you. I think we all heard the 
question. Would anybody care to respond?
    Ms. Burke. I think I would just like to say that having 
been thrust into the judicial system several years ago, what I 
very quickly learned was that victims have far few many rights 
and criminals have far too many rights.
    I don't know specifically which laws need to be changed or 
amended, but I do think we need stronger laws. I do understand, 
though, being an educator, that with youth crime, you would 
like to think that we should give those offending youth a 
chance to rehabilitate themselves, to change.
    I was just talking with Deb, in fact, in terms of dating 
violence. I've heard from several superintendents and 
principals asking the question: So if we have an episode of 
dating violence on school grounds, according to our policy, we 
can discipline the abusive partner, but what do we do to re-
educate them, to help to turn them around?
    And as an educator--and this is very difficult for me, with 
a daughter that's been murdered. It's hard for me to look at it 
from the viewpoint of the abusive partner. But I do--I try to 
be as objective as possible and I do believe in my heart that 
when you're talking about a youthful offender, that we have to, 
as a society, give them a chance to rehabilitate themselves, 
hopefully through some sort of an educational program.
    However, I do believe that each of them have to be held 
accountable for their actions. So I think that the re-education 
and the rehabilitation has to be on top of the discipline or 
being held accountable according to the law.
    I don't know the specifics of your case, but I do believe 
that far too often, we're a little bit too soft with criminals, 
regretfully.
    Senator Whitehouse. Let me ask an additional question. 
Violence within a relationship often has different motivations 
and different triggers than violence in other circumstances.
    Are there programs that are particularly effective at 
dealing with the offenders and giving them the chance to 
rehabilitate themselves and to learn how to avoid traveling 
that path again that are particularly effective in the 
relationship violence context?
    Ms. DeBare. Well, to answer that, what I would say is that 
domestic violence and dating violence situations are primarily 
crimes driven by motivation of power and control. And so as 
learned behaviors, there are psychosocial programs that have 
been developed over the past 15-20 years in a group setting 
that are, at this point, the most effective that research has 
seen.
    Now, I'm not going to sit here and say that they are 
effective or a cure, but there is some research that is 
encouraging that for individuals who are motivated, that the 
behaviors can change.
    For the most part, though, to recognize that domestic and 
dating violence is societally learned behavior--and so that as 
a society, if we can change those norms and, in that way, hold 
our own selves accountable, we have a much greater likelihood 
of reducing domestic and dating violence.
    Senator Whitehouse. And how long is the pull of childhood 
exposure to violence in adult behavior? You said that it was 
statistically significant, but how significant?
    Ms. DeBare. Children who are exposed to domestic violence 
are often six times more likely than children who are not 
exposed to domestic violence to have symptoms or behavior 
problems or repeat the cycle.
    So while that is a high risk factor, it is not a direct 
causal factor, and that's where the research is quite--there's 
a large continuum about how large of a risk factor that really 
is.
    Early interventions, as I said before, have been proven to 
take that risk factor and dramatically cut it down. So just 
because someone grows up in a home where there is abuse going 
on does not mean that they are automatically going to grow up 
to be abusive.
    Senator Whitehouse. And let me ask one more question about 
the relationship. We have two topics today. One is bullying and 
cyber-bulling, and the other is relationship violence, domestic 
violence.
    What is the connection between the two? How would you 
describe it?
    Ms. Zakarin. Well, I think there is a strong connection and 
it's part of the reason why I use and our program uses the 
words ``relationship violence,'' because that encompasses 
violence in a peer relationship or bullying, cyber violence, 
dating violence. And what has been found is that there are so 
many similarities between the violence that happens among 
peers; also, very often, about power and control, having a lot 
of the same effects on health and well being, on academic 
success, as dating violence.
    So there is a tremendous amount of overlap, which is why I 
think it's good to get away from putting dating violence and 
bullying in different silos and seeing them as a continuum of 
behaviors that all relate to relationship violence.
    And I will probably sound like a broken record, but the 
more that we can do to teach kids about what a healthy 
relationship looks like, wherever, at school, at home, with a 
dating partner, the more we will see a reduction in such 
issues.
    Senator Whitehouse. And that would be equally true whether 
the bullying was simply verbal versus physical. It connects 
nonetheless.
    Ms. Zakarin. Sure. And what we try to do is to help 
children understand that violence is more than just a physical 
assault. Traditional schoolyard bullying, fighting is very 
different now and sometimes children do not realize that 
sitting in front of the computer screen and posting something 
and hitting ``enter'' is a form of violence, and that using 
your words to hurt someone or cause fear in someone is a form 
of violence; or destroying someone's property, even if you're 
not hurting them physically, is a form of violence.
    So in these conversations, it's important that we give 
young people a broader definition of what violence is and, 
also, hold young people responsible for their own behavior so 
that they're not perpetrating violence against others.
    Senator Whitehouse. Very good. Yes? Please, Ann.
    Ms. Burke. And as much as I agree wholeheartedly 100 
percent with what Ruth just said, that we need to take that 
comprehensive approach and especially starting early and there 
is the overlap, most of the similarity has to do with the power 
and control in the relationship.
    I think, though, that whatever we do to address the 
bullying situation, we cannot and must not let dating violence 
get lost in the shuffle, because there are some differences as 
it progresses.
    Abusers of dating violence usually have a problem with one 
person and one person only, and that's their romantic partner, 
and, generally, much of that abuse takes place in private. 
Oftentimes, we don't know who the abusers are. And that's why 
when you see episodes of domestic violence in the news, people 
will oftentimes say, ``I can't believe it. He seemed like such 
a nice person.'' You wouldn't guess that that person was being 
abusive to their romantic partner.
    In stark contrast to that, when we look at bullying, 
especially amongst young people, bullying is an overt behavior. 
In school, everybody knows who the bullies are and victims know 
that they're being victimized.
    They may not most often feel secure enough and faith enough 
to come forward and tell, but they do know that they're being 
victimized. When we look at dating violence, most victims of 
dating violence are not aware that they're victims of dating 
violence. They're not aware that they're being abused.
    So there are those differences and those are very 
significant differences. So whatever we do educationally for 
bullying, some of it in the early stages does certainly apply 
to dating violence, but as we enter the middle school years, 
we've got to address those issues both. We can't have them so 
enmeshed that dating violence gets lost, because then we'll end 
up back in the situation where we have victims not learning 
warning signs, et cetera, et cetera, et cetera.
    Senator Whitehouse. Good. Well, you all have just done 
wonderful work. And I want to assure you that as we go forward 
in Washington on these issues, that we will be in close touch 
with you. It is part of my job to bring the experience and 
wisdom of Rhode Island down to Washington and try to improve 
things there through the wisdom and experience that Rhode 
Islanders can bring to so many different issues.
    But on this one, I think, Rhode Island really has an 
enormous amount to be proud of. And even though a great deal of 
this leadership had its inception in tragedy, it is, 
nonetheless, inspiring for that, indeed, it is wonderfully 
inspiring because of that.
    And so I thank you very much and I look forward to working 
with you as we go forward. I just want to close with an 
expression of my very great pride in what you have done in 
Rhode Island and what you continue to do in Rhode Island every 
day.
    So without further ado, if there is anything that anybody 
wants to add, the hearing will be open for an additional week 
and they can send anything they would like in to my office and 
we will add it into the record of these proceedings, and the 
record of these proceedings will become part of the official 
legislative record of the Congress of the United States.
    So thank you very much for participating, and the hearing 
is adjourned.
    [Whereupon, at 2:58 p.m., the hearing was adjourned.]
    [Submissions for the record follow.]


    [GRAPHIC] [TIFF OMITTED] 68183.001
    
    [GRAPHIC] [TIFF OMITTED] 68183.002
    
    [GRAPHIC] [TIFF OMITTED] 68183.003
    
    [GRAPHIC] [TIFF OMITTED] 68183.004
    
    [GRAPHIC] [TIFF OMITTED] 68183.005
    
    [GRAPHIC] [TIFF OMITTED] 68183.006
    
    [GRAPHIC] [TIFF OMITTED] 68183.007
    
    [GRAPHIC] [TIFF OMITTED] 68183.008
    
    [GRAPHIC] [TIFF OMITTED] 68183.009
    
    [GRAPHIC] [TIFF OMITTED] 68183.010
    
    [GRAPHIC] [TIFF OMITTED] 68183.011
    
    [GRAPHIC] [TIFF OMITTED] 68183.012
    
    [GRAPHIC] [TIFF OMITTED] 68183.013
    
    [GRAPHIC] [TIFF OMITTED] 68183.014
    
    [GRAPHIC] [TIFF OMITTED] 68183.015
    
    [GRAPHIC] [TIFF OMITTED] 68183.016
    
    [GRAPHIC] [TIFF OMITTED] 68183.017
    
    [GRAPHIC] [TIFF OMITTED] 68183.018
    
    [GRAPHIC] [TIFF OMITTED] 68183.019
    
    [GRAPHIC] [TIFF OMITTED] 68183.020
    
    [GRAPHIC] [TIFF OMITTED] 68183.021
    
    [GRAPHIC] [TIFF OMITTED] 68183.022
    
    [GRAPHIC] [TIFF OMITTED] 68183.023
    
    [GRAPHIC] [TIFF OMITTED] 68183.024
    
    [GRAPHIC] [TIFF OMITTED] 68183.025
    
    [GRAPHIC] [TIFF OMITTED] 68183.026
    
                                 <all>

</pre></body></html>
